                                 INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) review
of federal income taxes withheld from annuity payments paid under the Railroad
Retirement Act (RRA) by the Railroad Retirement Board (RRB).

Background

The RRB is an independent agency in the executive branch of the Federal
government. The RRB administers the health and welfare provisions of the RRA
which provide retirement-survivor benefits for eligible railroad employees and
their families. During fiscal year 2006, the RRB paid over $9.5 billion in
retirement and survivor benefits to over 619,000 beneficiaries.

Pursuant to the Railroad Retirement Solvency Act of 1983 and effective
beginning with the 1984 tax year, the RRB started withholding U.S. Federal
Income Tax from RRA annuity payments.

The Taxation Accounting System (TAS) database and associated programs were
developed to meet the tax reporting and tax withholding requirements of the
Railroad Retirement Solvency Act of 1983. The TAS system calculates tax
withholding and accounts for all taxable payments to, and recoveries from,
individual beneficiaries. The TAS system also provides the data used to prepare
the annual tax statements that are sent to beneficiaries showing benefits paid,
repaid, and any taxes withheld during the year. The RRB also reports this
information to the Internal Revenue Service (IRS).

The RRB uses an outside contractor to produce and mail tax statements. The
RRB released over 600,000 original tax statements to beneficiaries for tax year
2005. The RRB filed annual tax returns with the IRS reporting over $238 and
$253 million dollars in taxes withheld and deposited for tax years 2005 and 2006,
respectively.

A railroad retirement annuity has several components. The RRB must withhold
federal income taxes from those components that are not equivalent to social
security benefits unless the beneficiary specifically directs otherwise. Citizens/
residents and non-resident aliens are subject to different requirements.

Generally, citizens and residents of the United States may decline tax
withholding or elect tax withholding and indicate the amount of taxes to be
withheld from their annuities by filing the proper form with the RRB. If the
beneficiary does not elect to decline withholding or specify the amount to be
withheld, the RRB withholds taxes automatically at a rate prescribed by the IRS.




                                          1
Nonresident aliens may not decline withholding. They are subject to mandatory
tax withholding at a rate prescribed by the Internal Revenue Code unless they
claim exemption under a tax treaty that is in effect between their country of legal
residence and the United States. These treaties may reduce or eliminate the
amount of withholding.

Benefits that are, by law, equivalent to social security benefits are subject to
withholding only if the beneficiary voluntarily requests it.

After the end of each calendar year the agency releases an annual tax
statement, Form RRB-1099-R, to railroad retirement annuitants reporting pension
benefits paid, repaid and taxes withheld. Other forms are used to decline
withholding, elect withholding status or request voluntary withholding of taxes
from social security equivalent benefits. Appendix I describes these forms and
their role in the process.

The RRB’s Office of Programs is responsible for computing tax withholding,
issuing annual tax statements and maintaining the electronic record of
transactions in the TAS system. The Office of Administration is responsible for
transfer to storage and subsequent retrieval of paper documents collected during
the tax withholding process pursuant to the requirements of the agency’s records
disposition schedule.

The RRB’s strategic plan has identified as agency goals “to provide excellent
customer service” and “to serve as responsible stewards for our customers’ trust
funds and agency resources.” This audit supports the RRB in achieving those
goals.


Objective

The objective of this audit was to assess the accuracy of federal taxes withheld
from RRA annuity payments.


Scope

The scope of our audit was annuitants receiving Form RRB-1099-R for calendar
years 2005 and 2006. Form RRB-1099-R is issued to all annuitants who receive
benefits during the calendar year whether they have had taxes withheld or not.

The lack of adequate agency documentation to support certain transactions
created a limitation on the scope of our audit procedures that prevented us from
completing all audit steps required to respond fully to the audit objective. As a
result of this scope limitation, we were not able to express an opinion concerning
the accuracy of federal taxes withheld from RRA annuity payments and reported



                                          2
to annuitants on Form RRB-1099-R for calendar years 2005 and 2006. The
details of the internal control weaknesses that created this scope limitation are
discussed in the results section of this report and in Appendices II and III which
present our sampling methodology.

The scope of this audit specifically excluded tests of benefit entitlement and
benefit amounts including the allocation between taxable and non-taxable
annuity components.

Methodology

To accomplish our objective, we:
   1. identified the laws, regulations and procedures applicable to pension tax
      withholding;
   2. compared the criteria to the agency’s policies and procedures;
   3. interviewed responsible staff and management;
   4. used statistical acceptance sampling to determine whether:
       •   amounts withheld for income taxes were calculated correctly based on
           the input to the TAS system during calendar years 2005 and 2006,
       •   input to the TAS system agreed with tax withholding election forms
           filed by the annuitant for amounts withheld during calendar years 2005
           and 2006, and
       •   annual reports to the annuitant accurately reported the amounts
           withheld for calendar years 2005 and 2006;
   5. tested non-statistical samples of randomly selected annuitant records to
      assess selected aspects of agency compliance with requirements that
      apply to certain small subgroups such as non-resident aliens and those
      who elect voluntary tax withholding; and
   6. used data analysis, a non-statistical random sample and judgment
      sampling (non-random, non-statistical) to test the records of certain
      individuals who did not have taxes withheld from their annuities to
      determine whether taxes should have been withheld because of an
      election or requirement.

A detailed description of our sampling methodology is presented in appendices II
and III to this report.

Our work was performed in accordance with generally accepted government
auditing standards applicable to this type of audit. Fieldwork was conducted at
RRB headquarters in Chicago, Illinois during January 2007 through April 2007.




                                          3
                              RESULTS OF AUDIT

We express no opinion concerning the accuracy of federal taxes withheld from
RRA annuities. The lack of adequate support precluded a full assessment of the
accuracy of amounts withheld; however, we were able to verify that the RRB
withholds taxes from RRA benefits when required and that tax statements
correctly reported amounts withheld.

We were not able to test the accuracy of amounts withheld because the RRB
was not able to provide all requested supporting tax election forms for inspection
during the audit and the automated system that supports taxation accounting
overwrites certain historical information related to tax elections.

In addition to the foregoing lack of support for transaction processing, we
observed that although agency procedures provide that tax withholding elections
be made only using specific tax election forms, the RRB does not always require
annuitants to file the proper forms. We also observed that agency procedures for
computing tax withholding amounts have not been updated to reflect a change in
computational methodology.

The details of our findings and recommendations follow.

Action Needed to Ensure Proper Document Storage and Retrieval

Tax withholding election forms are not readily available for inspection. Agency
personnel were not able to locate all of the forms that should have been available
for review during the audit. In addition, during the review process, we observed
tax election forms that had been misfiled.

The agency’s current document retention schedule requires the RRB to retain
paper tax withholding election forms for five years. In the RRB Records
Disposition Handbook (February 2001), Schedule 21, Item 21-3 “Withholding
Certificate for Railroad Retirement Payment,” is described as a “File consisting of
Form RRB W-4P that is completed throughout the tax year by annuitants to
indicate the withholding desired for the portion of their annuity considered a
private pension.” The schedule provides as follows: “AUTHORIZED
DISPOSITION: Destroy when 5 years old.”

As part of our audit, we compared the information in the RRB’s automated
system with the tax withholding election forms filed by annuitants in order to
assess the accuracy of agency actions to withhold taxes. We requested tax
election forms for those individuals who had filed elections in prior years; once
tax withholding is elected it remains in effect until revoked. All of the forms
requested for audit testing should have been available for inspection based on
the published record retention schedule.



                                          4
None of the annuitant election forms filed during calendar year 2002 were
available for review because the agency could not locate the boxes in which they
had been filed. In addition, selected forms filed in other years could not be
located in the storage boxes in which, based on the agency’s filing system, they
should have been found.

Our review of 113 randomly selected tax withholding cases included 38 cases
where the tax withholding election form should have been maintained based on
the applicable agency record retention schedule. We requested these supporting
paper tax withholding forms filed by annuitants of which 20 (53%) were not
available for inspection.

    (1)     Twelve of the 38 forms could not be located because they had not
            been filed according to agency procedure.
    (2)     Eight of the 38 forms could not be located because they had been filed
            in calendar year 2002, the year for which the agency could not locate
            any of the forms.

During our examination of boxed records, we also observed forms that had been
misfiled when they were boxed for storage. For example, several boxes labeled
as containing tax year 2005 documents also contained documents from tax years
2001 through 2004. In addition, agency procedure requires documents to be
sorted and boxed in batches based on the last two digits of the annuitant’s RRB
claim number. 1 Some boxes that we received contained forms on which the last
two digits of the RRB claim number did not agree with the box label.

The lack of adequate supporting documentation created a limitation on the scope
of our audit procedures that prevented us from assessing the accuracy of
amounts withheld. The effect of this scope limitation on the audit is discussed in
more detail on page 2 of this report.

Agency management could not offer a reason for the non-compliance with record
retention requirements and filing procedures. Subsequent to the presentation of
this finding, agency management reported the missing boxes of Forms W-4P for
tax year 2002 to the U. S. Computer Emergency Readiness Team within the U.S.
Department of Homeland Security as an incident involving personally identifiable
information. The missing forms include name, social security number and
address of the filer. After further investigation, agency management concluded
that the missing forms, a total of approximately 35,000 forms in six boxes, had
been unintentionally destroyed after having been emptied into shredding
containers.

1
  The RRB claim number is a six or nine digit number with an alphabetical prefix. This number
identifies the annuitant’s records at the RRB and is usually a social security number or an
equivalent identification number.



                                                5
Recommendation

We recommend that the Office of Programs:

       1. implement controls to ensure proper filing of tax withholding
          documents; and

the Office of Administration implement additional controls to ensure that:

       2. documents subject to published retention schedules are destroyed only
          on the specific instruction of an authorized agency official; and
       3. documents pending destruction or transportation to an offsite storage
          location are stored securely consistent with requirements for the
          protection of personally identifiable information.

Management’s Response

Management concurs with the recommendations. In response to
recommendation #1, the Office of Programs will review the requirements and
options, and develop a plan within six months. In response to recommendation
#2, the Office of Administration plans to update the Administrative Circular IRM-4
to reflect specific instructions for destruction of documents subject to retention
schedules. In response to recommendation #3 the Office of Administration has
advised that they have constructed a secured area for storage of sensitive
records prior to shipment to the Federal Records Center.

The full text of management’s response is included as Appendices IV and V to
this report.


Automated System Overwrites Data

The automated system that supports tax computation and withholding is not
programmed to retain any history of tax withholding election data. Whenever a
new election form is filed, the old information is overwritten and permanently lost.

Annuitants who are subject to tax withholding may request changes to their
withholding status. For example, they may request additional amounts be
withheld, ask to reduce the amount withheld, or decline withholding. The
annuitant submits the properly signed form to the agency and agency personnel
input the updated election information into the automated system. The system
then re-calculates the amount of withholding which may impact the net amount
paid.

The U.S. Government Accountability Office Standards for Internal Control in
Federal Government requires that transactions be fully supported.



                                          6
Absent a complete history in the automated system, it is not possible to
determine the basis for any tax withholding not computed under the current
election criteria. The only evidence of a prior election would be that the payment
history would show changes in the amounts withheld; however, the basis for that
change would not be detailed. The annuitant’s paper-based request to change
their withholding is retained only for the five-year period provided for in the
agency’s retention schedule after which time it is destroyed. 2

As a result, the automated system does not provide a complete historical record
of tax withholding activity and no other available electronic resource provides an
adequate substitute.

Due to the lack of historical information, the RRB was unable to fully support the
history of tax withholding transactions for some annuitants. The lack of adequate
support created a limitation on the scope of our audit procedures that prevented
us from assessing the accuracy of amounts withheld. The effect of this scope
limitation on the audit is discussed in more detail on page 2 of this report.

Recommendation

       4. We recommend that the Office of Programs provide for a complete
          automated transaction history.

Management Response

Management concurs in principal with the recommendation. However, in lieu of
changes to the TAS system, management prefers to take alternate action. The
Office of programs has begun imaging Forms RRB-W4P for 2006 and later. In
addition, the Office of Programs plans to image TAS system recertification letters
by September 30, 2008.

The full text of management’s response is included as Appendix V to this report.


Agency Needs to Ensure Consistent Use of Approved Forms

Contrary to agency procedures, the Office of Programs accepts letters and other
informal documents to process tax withholding requests in lieu of official forms.

According to current procedure, an annuitant must file Form RRB W-4P to elect
tax withholding, decline tax withholding, or control the amount of taxes withheld
from their benefit payments. The RRB will also accept IRS Form W-4P. If a



2
See our prior finding concerning the availability for inspection of annuitant tax withholding forms.



                                                  7
beneficiary does not file one of those forms, tax withholding is mandatory and
taxes are withheld at a rate prescribed by the Internal Revenue Code. 3

During our review, we observed that field offices and headquarters personnel
sometimes accepted letters or screen prints, signed by the annuitant, in lieu of
one of the approved forms to process tax withholding requests. The Office of
Management and Budget approved Form RRB W-4P or IRS Form W-4P includes
important notices and information concerning the rights and responsibilities of the
annuitant with respect to the payment and withholding of taxes. When the proper
form is not provided and completed, there is no evidence that the annuitant has
received the proper information prior to filing.

As a result of the audit, the Office of Programs issued an agency-wide reminder
to responsible employees that only Form RRB W-4P or IRS Forms W-4P or W-
4V, are acceptable to effect or change citizen tax withholding.

Recommendation

       5. We recommend that the Office of Programs implement additional
          controls to ensure that only Form RRB W-4P or IRS Forms W-4P or
          W-4V, are used to process citizen tax withholding requests.

Management’s Response

The Office of Programs concurs with recommendation #5. In addition to the
previously released reminder, the Office of Programs plans to initiate a periodic
review of the forms as part of its quality assurance program on the imaging.

The full text of management’s response is included as Appendix V to this report.


Procedures Need to be Updated for Current Rounding Methodology

The RRB’s available written procedures for calculating tax withholding have not
been updated to reflect a change in determining taxable pension amounts.

The Tax Operating Manual contains instructions for Form G-309, Tax
Withholding Worksheet, and indicates that a beneficiary’s taxable amount should
be entered in dollars and cents when computing the amount of tax withholding.


3
 The mandatory rate prescribed by the Internal Revenue Code is applicable whenever a
beneficiary does not file a Form RRB W-4P or IRS Form W-4P. According to the RRB’s Office of
Programs Tax Operating Manual, if tax withholding elections are not filed using Form RRB W-4P
or IRS Form W-4P, the mandatory tax withholding will be applied. For purposes of determining
whether the agency had properly computed and applied withholding, we treated informal
communications between annuitants and the agency as if the annuitant’s intent had been
properly documented.



                                              8
However, current practice is for the RRB to round down to the nearest whole
dollar prior to applying applicable tax rates.

RRB management indicated that the tax accounting system was revised in 1998
to round the pension amount subject to tax withholding down to the nearest dollar
prior to calculating the tax withholding amount. However, the instructions for
Form G-309, Tax Withholding Worksheet, were never revised to reflect this
change. As a result, procedures do not reflect management’s directives and are
not consistent with current practices.


Recommendation

      6. We recommend that the Office of Programs ensure that all written
         procedures for calculating tax withholding amounts are accurate and
         consistent with current practice.

Management’s Response

The Office of Programs concurs with the recommendation #6 and has advised
that they have revised the tax withholding worksheet procedures to be consistent
with current practice.

The full text of management’s response is included as Appendix V to this report.




                                        9
                                  Appendix I
                      Description of Tax Forms Reviewed

During our audit, we obtained and reviewed information on the annual tax
statements and reviewed available tax forms filed by annuitants.

Annual Statements

Form RRB-1099-R Statement
The RRB issues annual tax statements to individuals who were paid or who
repaid railroad retirement annuities or had tax withholding for the previous year.
Form RRB-1042S Statement
The RRB issues annual tax statements to nonresident aliens who were paid or
who repaid social security equivalent benefits or had tax withholding for the
previous year.

Forms Filed by Annuitants

Form RRB W-4P - Withholding Certificate for Railroad Retirement Payments

RRB citizen annuitants use this form to inform the RRB whether they want
federal taxes withheld from their pension components, and how much to
withhold.

IRS Form W-4V - Voluntary Tax Withholding

RRB citizen annuitants use this form to inform the RRB whether they want
federal taxes withheld from social security equivalent railroad retirement benefits.

Form RRB 1001 - Nonresident Questionnaire

Nonresident RRB annuitants use this form to furnish citizenship, residency, and
tax treaty exemption information to the RRB.




                                          10
                                 Appendix II
                     Sampling Methodology and Results
                            Statistical Sampling

We used statistical sampling to assess the accuracy of Federal taxes withheld
and reported.

Objective

The sampling objective was to determine whether:

   1. the RRB accurately reported amounts withheld to annuitants on Form
      RRB-1099-R
   2. the amount of federal tax withheld from payments had been correctly
      calculated based on the annuitant’s tax election filing as input to the
      automated system; and
   3. data in the automated system was accurate with respect to annuitant tax
      election filings.

Scope

We selected our sample from the universe of 190,906 calendar year 2005 tax
statements with federal taxes withheld and tested agency performance through
calendar year 2006.

Review Methodology

We used two-step attribute acceptance sampling with a 90% confidence level
and 5% tolerable error which directed a 59 case sample for step one and 54 case
sample for step two. The threshold for acceptance was zero errors for step one
and two errors for step two. If step one was accepted at the parameters (zero
errors) we would conclude based on the results. If step one identified one or
more errors resulting in rejection at that step, we would proceed to step two. If
step two identified three or more errors we would reject the sample.


Federal Tax Withheld/Reported (Form RRB-1099-R Statement)

We calculated the total calendar year 2005 and 2006 tax withheld based on the
tax withholding amounts in the system and compared these totals to the
electronic Form RRB 1099-R statements. An error was defined as an auditor
determination that the auditor-calculated federal tax withheld amount was not
consistent with the federal tax withheld per the Form RRB-1099-R Statement.




                                         11
                                         Appendix II
                             Sampling Methodology and Results
                                    Statistical Sampling

Federal Tax Withholding Amount

To assess the accuracy of system-calculated withholding amounts, we
recalculated the calendar year 2005 and 2006 withholding amounts using tax
withholding election data as recorded in the automated system that supports tax
accounting. An error was defined as an auditor determination that the auditor-
calculated tax withholding amount was not consistent with the TAS system
withholding amount.

Data Input for Tax Withholding Elections

To assess the accuracy of tax withholding election data as recorded in the
automated system that supports tax accounting, we compared system
information with the original tax election document filed by the annuitant. An
error was defined as an inconsistency in any one of the following five areas of
testing:

      •        marital status,
      •        election status,
      •        tax withholding allowance,
      •        additional withholding amount, and
      •        tax withholding rate.

Results of Review

Our evaluation of 113 randomly selected tax withholding cases from a population
of 190,906 tax statements identified exceptions as shown below.

         Audit Objective                  Exceptions Identified 4              Results
Assess the Accuracy of Federal                    None              90% confident that tax
Taxes Withheld/Reported on Form                                     statements accurately report
RRB-1099-R.                                                         amounts withheld for at least
                                                                    95% of the universe.
Assess the Computational                            9               Testing could not be
Accuracy of Federal Tax                                             completed for 9 sample items
Withholding Amounts.                                                because the automated
                                                                    system overwrites prior data
                                                                    which precluded full testing.
Assess the Accuracy of Tax                          20              Testing could not be
Withholding Election Data Input to                                  completed because
the Automated System.                    38 forms were requested    supporting tax election forms
                                         for review based on the    could not be located for
                                         agency’s published         review.
                                         record retention
                                         schedule.                  Twelve forms could not be
                                                                    located because they had not

4
    Some cases had more than one exception.



                                                   12
                                  Appendix II
                      Sampling Methodology and Results
                             Statistical Sampling

        Audit Objective          Exceptions Identified 4              Results
                                                           been filed according to
                                                           agency procedure.

                                                           Eight forms could not be
                                                           located because they had
                                                           been filed in calendar year
                                                           2002, a year for which the
                                                           agency could not locate any
                                                           forms.

The exceptions cited were due to scope limitations caused by an insufficient
audit trail that prevented full testing of amounts withheld. Although, no errors
were identified in the cases that were fully reviewed, cases that could not be
tested represent audit exceptions that preclude sample acceptance.

The lack of an adequate audit trail is a weakness in internal control which is
discussed more fully in the results section of this report including
recommendations for corrective action.

Audit Conclusion

We express no opinion concerning the accuracy of federal taxes withheld from
RRA annuities. The lack of adequate support precluded a full assessment of the
accuracy of amounts withheld; however, we were able to verify that the RRB
withholds taxes from RRA benefits when required and that tax statements
correctly reported amounts withheld.




                                          13
                                           Appendix III
                                 Sampling Methodology and Results
                                     Non-Statistical Sampling

We used non-statistical sampling to supplement statistical sampling (see Appendix II)
for citizens without tax withholding and certain small subgroups of transactions that
were under-represented in the statistical sampling process.

Objective

The sampling objective was to obtain assurance about the accuracy of tax withholding
decisions applied to U.S. Citizens with no taxes withheld, non-resident aliens,
individuals requesting voluntary withholding and the overall accuracy of recent
processing.

Scope

The scope of non-statistical sampling tests was limited to selected transactions and
attributes as follows.

                                   Source & Method of             Universe
  Transactions Tested                Sample Selection               Size                Attribute Tested
U.S. Citizens with no          Selected at random from the        445,746        a. Reporting Accuracy
taxes withheld during          electronic file containing
calendar year 2005             calendar year 2005 tax                           b. Accuracy of Amount
                               statement data.                                  Withheld

                                                                                 c. Data Input Accuracy
U.S. Citizens with no          Data analysis and non-               1,679       Accuracy of Amount Withheld
taxes withheld during          random selection from the
calendar year 2005 with        electronic file containing
taxable pension                calendar year 2005 tax
components exceeding           statement data.
IRS thresholds for
mandatory withholding 5
Non-Resident Aliens            Selected at random from Tax          1,910
                               Treaty Exemption Forms on                        a. Accuracy of Amount
                               the RRB’s Document                               Withheld
                               Imaging System filed during
                               calendar years 2005 and                           b. Data Input Accuracy
                               2006.
Individuals electing           Selected at random from               645        a. Accuracy of Amount
voluntary tax withholding      Voluntary Tax Election                           Withheld
                               Forms on the RRB’s
                               Document Imaging System                           b. Data Input Accuracy
                               filed during calendar years
                               2005 and 2006.




5
  When the taxable portion of an annuity exceeded approximately $1,472.00 per month in 2005 and $1,497.00 per
month in 2006 formulas that are used to calculate periodic withholding will always result in taxes withheld unless
the annuitant has declined withholding or claimed a marital status and/or withholding allowances that reduce the
computed withholding to zero.



                                                          14
                                     Appendix III
                           Sampling Methodology and Results
                               Non-Statistical Sampling

                               Source & Method of       Universe
  Transactions Tested           Sample Selection          Size           Attribute Tested
Annuitants filing tax     Selected at random from tax    22,281    a. Accuracy of Amount
election forms during     election forms on the RRB’s              Withheld
calendar years 2005 and   Document Imaging System
2006                      filed during calendar years
                          2005 and 2006



Review Methodology

Our test methodology was the same as the statistical sample described in Appendix II,
except that some transactions were not tested for all attributes, and different tax forms
were examined as applicable to the type of transactions. More detailed description of
the review process and the definition of an audit exception is presented in conjunction
with the results of our review in the following section of this report.

These samples are described as non-statistical because they were not designed to
provide an independent basis for drawing inferences about the population as a whole.
In general, the sample sizes are too small for that purpose.

Results of Review

Our non-statistical sampling tests of data accuracy disclosed the same lack of audit trail
that was identified by our statistical sample review process. We again identified
transactions for which the automated system that supports tax withholding activity had
overwritten prior data thus preventing us from testing the accuracy of data input into the
system and the accuracy of the amount withheld.

See appendix III for the details of our non-statistical sampling tests.

Audit Conclusion

The results of our supplementary non-statistical sampling tests are consistent with the
result of the statistical sampling tests reported in Appendix II. The lack of adequate
support precluded a full assessment of the accuracy of amounts withheld. Limited tests
of reporting accuracy and mandatory withholding disclosed no errors.




                                                 15
                                                            Appendix III
                                                  Sampling Methodology and Results
                                                      Non-Statistical Sampling

                                                                                                   Definition of Audit
       Transactions Tested            Attribute Tested                Test Performed                   Exception              Audit Exceptions
     U.S. Citizens with no    a. Reporting Accuracy             a. Compared amounts              a. Amount reported to   a. None
     taxes withheld during                                     withheld for taxes with          the annuitant does not
     calendar year 2005                                        amounts reported to the          agree with the amount
                                                               annuitant on Form RRB-1099-      withheld.
                                                               R.
     Universe Size: 445,746   b. Accuracy of Amount Withheld                                     b. Auditor re-           b. Testing could not be
     Sample Size: 25                                            b. Re-calculated the tax        calculation does not     completed for one sample
                                                               withholding amount using         agree with amount        item because the
                                                               data in the automated system.    withheld.                automated system
                                                                                                                         overwrites prior data.

                              c. Data Input Accuracy            c. Compared tax election         c. Automated system      c. Testing could not be
                                                               form, if one was filed by the    reports information      completed for one sample
                                                               annuitant, with the data input   inconsistent with the    item because the
16




                                                               to the automated system.         form filed by the        automated system
                                                               When no form was filed, we       annuitant or IRS         overwrites prior data.
                                                               recalculated applicable          mandated rates.
                                                               withholding based on
                                                               mandatory rates established
                                                               by the IRS.
     Non-Resident Aliens      a. Accuracy of Amount Withheld    a. Re-calculated the tax         a. Auditor re-          a. None
                                                               withholding amount using         calculation does not
     Universe Size: 1,910                                      data in the automated system.    agree with amount
     Sample Size: 25                                                                            withheld.

                              b. Data Input Accuracy            b. Compared tax treaty           b. Automated system     b. None
                                                               exemption form filed by the      reports information
                                                               annuitant with the data input    inconsistent with the
                                                               to the automated system.         form filed by the
                                                                                                annuitant.
                                                               Appendix III
                                                     Sampling Methodology and Results
                                                         Non-Statistical Sampling

                                                                                                     Definition of Audit
       Transactions Tested               Attribute Tested                Test Performed                  Exception              Audit Exceptions
     Individuals electing        a. Accuracy of Amount Withheld    a. Re-calculated the tax        a. Auditor re-           a. Testing could not be
     voluntary tax withholding                                    withholding amount using        calculation does not     completed for one sample
                                                                  data in the automated system.   agree with amount        item because the
                                                                                                  withheld.                automated system
     Universe Size: 645                                                                                                    overwrites prior data.
     Sample Size: 25             b. Data Input Accuracy
                                                                   b. Compared the voluntary       b. Automated system      b. Testing could not be
                                                                  withholding form filed by the   reports information      completed for one sample
                                                                  annuitant with the data input   inconsistent with the    item because the
                                                                  to the automated system.        form filed by the        automated system
                                                                                                  annuitant.               overwrites prior data.
     U.S. Citizens with no       Accuracy of Amount Withheld      Re-calculated the tax           Auditor re-calculation   None
     taxes withheld during                                        withholding amount using        does not agree with
     calendar year 2005 with                                      data in the automated system.   amount withheld.
17




     taxable pension
     components exceeding
     IRS thresholds for
     mandatory withholding.


     Universe Size: 1,679
     Sample Size: 72
                                                             Appendix III
                                                   Sampling Methodology and Results
                                                       Non-Statistical Sampling

                                                                                               Definition of Audit
       Transactions Tested             Attribute Tested             Test Performed                 Exception              Audit Exceptions
     Annuitants filing tax     a. Data Input Accuracy         a. Compared the voluntary       a. Automated system     a. Testing could not be
     election forms during                                   withholding form filed by the   reports information     completed for two sample
     calendar years 2005 and                                 annuitant with the data input   inconsistent with the   items because the
     2006                                                    to the automated system.        form filed by the       automated system
                                                                                             annuitant.              overwrites prior data.

     Universe Size: 22,281
     Sample Size: 25
18
                                                                         Appendix I V




                                                                       July.16,2007



TO           : Letty Benjamin Jay
                 Acting Assistant Inspector General, Audit


FROM         :



SUBJECT: Draft        - Audit of Federal Income Taxes Withheld From
         Railroad Retirement Annuities


This is in reply to your July 9,2007 memorandum regarding the above subject. The
following are the Office of Administration's responses to the recommendations directed
to our organization.

Recommendation:

2. Documents subject to published retention schedules are destroyed only
   on the specific instruction of an authorized agency official.

We agree. Administrative Circular IRM-4 entitled Records Disposition will be updated to
reflect this recommendation. The update should be completed by September 30,2007.

3. Documents pending destruction or transportation to an offsite storage location
   are stored securely consistent with requirements for the protection of personally
   identifiable information.

We agree. A secured area has already been constructed on the 11" floor fot the Office of
Frograms. The Office of Administration has also created another lockable secure area for
temporary storage of sensitive records prior to shipment to the FRC.

cc: Director of Programs
    Supenisbry Contract Specialist
         J
                                                                              Appendix V
                                                                              Page 1 of 2
                                                                                               FORM G l I S f (1-92)

                                                                           RAILROADRETIREMENTBOARD



                                                                                    JUL 2 4 2087

TO:                Letty Jay
                   Acting Assistant lnspec&?eral,       Audit
FROM:              Catherine A. Le
                   Director of Ass

THROUGH:           Dorothy lshe
                   Director of Programs

SUBJECT:                          -
                   Draft Report Audit of Federal Income Taxes Withheld from RR
                   annuities



Overall          This audit points out that the auditors were unable to express an opinion on
Comments         the accuracy of federal taxes withheld from RR annuities due to the lack of
                 supporting documentation. Certain tax withholding election forms were
                 missing, and there was no history. We recognize that there was a problem
                 with forms being destroyed prematurely, and filed incorrectly, so that some
                 of the cases you reviewed did not have the information needed for
                 validation. Specifically 9 out of 113 cases reviewed were unavailable and
                 could not be verified. However, as is indicated in Appendix I I of your report,
                 the 104 cases for which you did find forms, the withholding amounts were
                 accurately calculated. We have no reason to believe that the cases for
                 which the forms could not be located were inaccurate.

                 The initiatives to image tax withholding forms and tax recertification letters
                 will preclude the kinds of exceptions you cite in this audit and when
                 completed and in place for a sufficient amount of time, should enable you to
                 revisit this area and have enough documentation on which to base an audit
                 decision. When those are fully implemented we will ask that the auditors
                 plan for another review, so that an opinion can be expressed.

                 We also have taken steps to address the premature destruction of the forms
                 for 2001 and 2002.

                 Specific recommendations for the Office of Programs are addressed below.


Recommendation   We recommend that the Office of Programs implement controls to ensure
1                proper filing of tax withholding documents.
                                                                        Appendix V
                                                                        Page 2 of 2

OP Response      We concur. We will review the requirements and our options, and develop a
                 plan within 6 months.


Recommendation   We recommend that the Office of Programs provide for a complete
4                automated transaction history.


OP Response      We concur. We do not, however, plan to make changes to the automated
                 Tax Accounting System to maintain a history of tax withholding election
                 data. The benefits of the recommended changes would be of limited value
                 and agency resources are not available for such a project. Alternatively,
                 beginning with forms for 2006 and later, Forms RRB-W4P are being
                 imaged, which will provide for a history of the forms. In addition, we plan to
                 image the letters released to annuitants regarding tax withholding from
                 monthly annuity payments by September 30, 2008. Together with the
                 imaged Forms RRB-W4P, the TAS recertification letters will provide for a
                 complete automated history of tax withholding.


Recommendation   We recommend that the Office of Programs implement additional controls to
5                ensure that only Form RRB W 4 P or IRS Form W4P or W4V, are used to
                 process citizen tax withholding requests.


OP Response      We concur. A reminder was sent to all field offices and the Director of
                 Operations on May 8, 2007 stressing the procedure contained in TOM-I-
                 205.10.02, which provides that tax withholding elections may only be made
                 using Form RRB-W4P or IRS Forms W 4 V and W4P.

                 Within 6 months, A&T will initiate a periodic review of the forms as part of its
                 QA on the imaging.


Recommendation   We recommend that the Office of Programs ensure that all written
6                procedures for calculating tax withholding amounts are accurate and
                 consistent with current practice.


OP Response      We concur. The instructions for completion of Form G-309, Tax Withholding
                 Worksheet, were revised May 10, 2007 (Procedure Transmittal No. 07-73)
                 to be consistent with the Taxation Accounting System's rounding of
                 amounts and calculation of tax withholding amounts. We have provided
                 copies of this to the auditors under separate cover. We consider this
                 recommendation as implemented.



cc:    Director of Administration
       Director of Policy and Systems
       Director of Operations
       Director of Field Service
